No.
IN THE SUPREME COURT OF THE UNITED STATES

MACHIAVELLI FARRAKHAN SIBERIUS
Plaintiff - Petitioner,
v.
AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et al.
Defendants - Respondents,

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit;
Case No. 19-7400 (Case. No. 2:18-cv-001125)

MOTION FOR LEAVE OF COURT, PURSUANT •TO RULE 33.1(d), TO EXTEND
LENGTH OF WRIT OF CERTIORARI

Circuit Justice

Machiavelli Farrakhan Siberius
P.O. Box 1162
Parkersburg, WV 26102
Telephone: (304) 210-6097
MFSiberius@hotmail.com
February 25, 2021

Machiavelli Farrakhan Siberius,
Pro Se

1
Motion to Extend Writ of Certiorari
Motion to enlarge word-count limit, the movant Machiavelli Farra.khan Siberius
respectfully requests this Court leave to file a single "Writ of Certiorari" containing an
extension from the 9,000 word limit to 20,398 words in the petition; this addition will be
reflected in the additional pages required from 40 pages to 58 pages. This will extend the
overall length of the "Writ of Certiorari" from the original guidelines in Rule 33.1(g).
Movant request leave of court to extend the named document, pursuant to Rule 33.1d,
Rule 22, and Order List, 589 U.S.
INTRODUCTION
The civil complaint is complex and can't serve as just a simple maxim or corollary to
a lawsuit: "a slip on the ice and injury," explained through the details of a short incident
and evidence to ascribe to a claim to relief, and here is 9,000 words. The petitioner,
Machiavelli F. Siberius was permitted by a teacher licensing board, to perform the duties
of a licensed teacher at a state-run school. He was enrolled at an accredited university,
simultaneously in a teacher degree program with state certification capability. The
petitioner was not only refused payment for services, but he was reprimanded and
retaliated against, for talking to the police department about a staff member at the
placement school; consequently, an underage girl was being abused and held
incommunicado, at a level 3 security facility and school.
The incident described in the 105-page Amended Complaint [ECF No. 29],
happened over a three-month period. This included a salary not being paid, documents not
being completed by the defendants, empty promises, defendants not cooperating with
contracts and law of the land, a college degree not being conferred, and damages to the

2
plaintiffs occupational career as a licensed teacher. Since this lawsuit is more complex
than a "simple fall," the petitioner is requesting 20,398 words on the writ of certiorari.
BACKGROUND
In 2016, the petitioner was enrolled at American Military University & American
Public University Systems as a federally funded and self-paying student. He was
permitted through the West Virginia Department of Education to be a student-teacher in
the course subject of English; this of course was after a criminal background check,
teacher occupational insurance, Praxis scores, teacher observation hours, and passing
grades in college level courses.
"In the Amended Complaint, `the plaintiff Machiavelli Siberius [had] filed a civil
action due to circumstances that surround his status and titles, as a student, student
teacher, teacher candidate, teacher, and intern as designated by the defendants at various
times in the history of their association and relationship' (p. 4, lines 19-22). Siberius was
not a student at Pressley Ridge, a K-12 school that issues diplomas to wards of the state
and juvenile delinquents. The plaintiff/appellant was not a Student Worker receiving
payments, reduced tuition, or boarding. In addition, the appellant was not engaged in the
activity of 'Observation of Teacher(s),' as noted on a timecard, due to that particular
activity being completed months prior to the incident, at a rate of 125 hours."
"The perception that the appellant possesses of the event seems to be reflected in
the contract, procedure, and state laws that define teacher candidates and a studentteacher, operating as a teacher at a particular time within the context of a teacher
program. In order to step into a K-12 classroom as an instructor, the university and
WVDE demand teacher occupation insurance, which this is not a necessity of an observer
of teachers" (Informal Brief 19-7400, pp. 2-3).
There were numerous protocols, laws, and a few contracts that had been broken in
the student university relationship, and the teacher candidate relationship with a local
school. These particular problems were at no fault of the petitioner, but the tortfeasor and
breaches were the responsibility of the defendants captioned in the complaint. There was
an unpaid salary for the student-teaching position and career damages.

3
EVIDENCE DISPUTE
On September 13, 2019, District Judge Joseph R. Goodwin issued an opinion IECF
No. 48] that contained disputed evidence, e.g. Joseph Garvey's Affidavit, however, there
was never an evidentiary hearing nor a compliance with record keeping according to the
Fair Labor Standard Act or parallel laws for student workers. U.S. Department of Labor
29 CFR §516.30; 29 U.S. Code §211; Reich v. Shiloh True Light Church of Christ, 895
F.Supp. 799, 819 (W.D.N.C. 1995); United States v. Carignan, 342 U.S. 36, 38 (1951),
(example of a derivative error of admission is the improper exclusion by the trial court of
evidence that may have rendered other admitted evidence inadmissible).
ARGUMENT AGAINST PROLIXITY
I
There is an intertwining of the teacher program with the state agency WVDE, and
coincidently, the local school being conjoined with the state agency rather than a county
board: this has added to the strenuous explanation of this particular situation: studentteaching and clinical teaching experience. Furthermore, especially the defendants have
gone as far as to deny their very names, not keeping proper records, and denying
involvement with the plaintiff-petitioner.
II
The District Judge Joseph R. Goodwin's irrational, radical, and separatist opinion of
42 U.S. Code §1983, is not only his mark of inexperience or prejudice towards the
petitioner, but possibly the signs of a mental illness contributing to an intellectual
disability. In retrospect, he should be reviewed by the bar association, because he is about
78 years old, past the retirement age of most federal,judges, and seems to be not up-to-

4
date on current laws and forgets the basic elements of a claim in a civil action. The
petitioner has a lot of legal discussion to cover, since the Judge has submitted an opinion
that is irrational, radical, and separate from up-to-date precedence and laws. And of
course, the defendants would applaud the District Judge's opinion, for they can slip out of
a lawsuit and slide more money in their pockets.
III
In Western Pac. R. Corp. v. Western Pac. R. Co., 345 U.S. 247 (1953), "Litigants are
given no statutory right to compel each member of the court to give formal consideration
to an application for a rehearing en bane." Pp. 345 U. S. 256-259, 345 U. S. 267.
Accordingly, "the Court grants rehearing en bane in approximately 0.3% of the cases in
which it is requested." This does not necessarily mean that the other 99.7% cases for
rehearing en banc are wrong, as much as not chosen by the internal processes of the
circuit court. In 28 U.S. Code §46, "The statute does not compel the court to adopt any
particular procedure governing the exercise of the power; but, whatever procedure is
adopted,..." 345 U. S. 259-261, 345 U. S. 267. Shenker v. Baltimore & Ohio R. Co., 374
U.S. 11 (1963) reaffirmed, [that] "It neither forbids nor requires each active member of a
Court of Appeals to entertain each petition for a hearing or rehearing en bane."
IV
The petitioner is arguing the Fair Labor Standard Act for student-teachers, 42 U.S.
Code §1983, and discussing record keeping with the `FLSA'.

V
To accommodate the rule requirements between the Supreme Court and U.S. Court
of Appeals for the Fourth Circuit.

5
Memorandum of Law in Support
In Revisions to Rules of the Supreme Court of the United States (Adopted 18, 2019)
has shown that a reduction in word limits had occurred in 2016 and 2019, due to undue
repetition and petitioners making effective argument in fewer words. Condon v. City of
Chicago, Case No. 09-C-2641, (7th Cir., 2011) (The proper course of action would have been
to seek leave to file a brief in excess of the page limitation and not to alter the font and
spacing of its brief and omit portions of its brief.) See English v. CSA Equipment
Company, LLC, Civil Action 05-0312-WS-B, (11th Cir., 2006)
Forsythe u. BD. OF EDUC., DIST. NO. 489, 956 F. Supp. 927 (D. Kan. 1997)
"Although other litigants have in the past attempted to circumvent the court's page
limitations by expanding margins and/or shrinking the font size to near microscopic
proportions, see, e.g., Phelps v. Hamilton, 840 F. Supp. 1442, 1448 (D.Kan.1993) ("Briefs
using such a 'favorite undergraduate gambit' may be struck in the court's discretion."), or
by the filing of piecemeal dispositive motions, until now no one has been so brazen as to
file a "supplemental" brief that is nothing more a thinly veiled attempt to circumvent this
court's page limitation." Id. at 928.
CONCLUSION
Wherefore, the petitioner respectfully requests the U.S. Supreme Court permission
to file a writ of certiorari containing a 20,398 word limit and 58 pages at length to
accommodate.

AAO
Petitioner-Plaintiff, Pro se Litigant
Machiavelli Farrakhan Siberius
Telephone: (304) 210-6097
MFSiberius@hotmail.com

